                         U.S. Department of the Interior
                             Office of Inspector General




                 GovWorks Gainsharing Program
              and Recovery of Costs Related to the
                         Interior Franchise Fund
                         Minerals Management Service

Report No. 2002-I-0050                   September 2002
                                                                    H-IN-MMS-014-01-D

             United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240
                                                                      September 30, 2002



Memorandum

To:        Assistant Secretary for Policy, Management and Budget
           Assistant Secretary for Land and Minerals Management

From:      Earl E. Devaney
           Inspector General

Subject:   Final Report, GovWorks Gainsharing Program and Recovery of Costs Related
           to the Interior Franchise Fund, Minerals Management Service
           (Report No. 2002-I-0050)

      The attached report presents the results of our audit of the Minerals Management
Service’s (MMS) gainsharing (group incentive award) program and recovery of costs
related to the Interior Franchise Fund (IFF) for fiscal years 1997 through 2001. Our
objective was to determine whether (1) the gainsharing program of GovWorks (trade
name for MMS’s fee for service procurement branch) was properly authorized and
operated in an appropriate and equitable manner and (2) the expenses of IFF procurement
activities were identified and recovered. Our office found multiple deficiencies in
GovWorks gainsharing and about $377,000 in under recovered IFF related expenses.

     The Assistant Secretary for Land and Minerals Management agreed with our
recommendations to terminate gainsharing and to fully recover costs. The Assistant
Secretary for Policy, Management and Budget advised that the Department of the Interior
should not allow any incentive award over and above the Department’s award program.
Based on their responses, we consider the report’s three recommendations to be resolved
and implemented. Accordingly, no further response to this report is necessary.

      The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.
App. 3) requires that we report to Congress semiannually on all audit reports issued,
actions taken to implement audit recommendations, and recommendations that have not
been implemented.

      If you have any questions regarding this report, please call me at (202) 208-5745.

Attachment
Executive Summary
Minerals Management Service
GovWorks Gainsharing Program and Recovery of Costs
Related to the Interior Franchise Fund

Background   GovWorks is the registered trade name of the procurement branch
and          within the Minerals Management Service (MMS) that provides
             procurement services for MMS and other Federal entities,
Objective    including the Interior Franchise Fund (IFF), a pilot franchise
             program established within the Department of the Interior (DOI)
             in 1997. IFF provides goods and services on a competitive fee-
             for-service basis by subcontracting with other service providers
             within DOI, one of which is GovWorks. As a service provider,
             GovWorks is required to charge IFF for all costs associated with
             IFF activities.

             GovWorks developed and implemented a gainsharing (group
             incentive award) program in fiscal year 1997. The program was
             premised on the belief that employees should share in any gain
             resulting from increased productivity. In June 2001, the Acting
             Assistant Secretary for Policy, Management and Budget (PMB)
             requested MMS to suspend gainsharing payments pending
             completion of our audit.

             Our audit objective was to determine whether (1) the gainsharing
             program was properly authorized and operated in an appropriate
             and equitable manner and (2) the full costs of IFF procurement
             activities were identified and recovered. To help us evaluate the
             appropriateness of GovWorks award amounts and the merits of its
             award program, we also looked at the award programs of seven
             other Federal agencies and one private company, which are
             identified in this report as “benchmarking partners.”1
Results in   MMS should terminate its GovWorks gainsharing program.
Brief
                     The gainsharing program was not authorized by DOI or
                     MMS, nor did GovWorks develop and implement the

             ________________________
             1
              The Federal benchmarking partners were the U.S. Army, U.S. Mint, Bureau of
             Engraving and Printing, the Tennessee Valley Authority (TVA), and three
             General Services Administration (GSA) offices: the Federal Systems
             Integration Management Center (FEDSIM), Federal Supply Service (FSS), and
             Public Building Service (PBS). We also reviewed one private company.


                                               i
                      program in accordance with Office of Personnel
                      Management (OPM), DOI, or MMS guidelines.

                      The gainsharing awards were unreasonably high compared
                      to incentive awards paid by our benchmarking partners and
                      throughout the government. In fiscal year 2001, the
                      highest total amount paid to benchmarking partner
                      employees ranged from $1,000 to $11,000. Two
                      GovWorks employees received $20,000 in fiscal year
                      2000. Government-wide, the average incentive award
                      payment was 1 percent of base salary. The normal payout
                      for gainsharing programs was 4 to 5 percent of employee
                      pay. GovWorks paid awards ranging from 16 to
                      47 percent of base salary.

                      There were weaknesses in the gainsharing award
                      determination process, including an unreasonable
                      performance target, incorrect award pool calculations,
                      subjective performance criteria, and lack of a written
                      payout formula for determining award amounts.

                  We also found that GovWorks did not recover $377,252 of
                  costs in providing procurement services to IFF. As a service
                  provider to IFF, GovWorks was required by law to recover all
                  IFF-related costs. It did not and instead used MMS
                  appropriations to subsidize the costs of some of its IFF
                  procurement services.

Recommendations   We recommended that the Assistant Secretary for Land and
                  Minerals Management direct MMS to terminate the gainsharing
                  program and establish procedures to identify and fully recover
                  the costs of IFF activities. We also recommended that the
                  Assistant Secretary for PMB determine whether IFF should
                  allow any extra incentive program over and above the DOI
                  award program.




                                             ii
Contents
                                                                                                                        Page

    Background ............................................................................................................. 1
        GovWorks Services and Organization.............................................................. 2
        Gainsharing Program ........................................................................................ 2
    Objective and Scope................................................................................................4
    Results of Audit ....................................................................................................... 5
        GovWorks’ Gainsharing Program Should be Terminated................................ 5
        Full Costs of IFF Procurement Activities Should be Recovered .................... 16
    Recommendations .................................................................................................18
    Agency Response and Office of Inspector General Reply................................. 18

    Appendices
        1 Benchmarking Award Programs Features ...............................................19
        2 Agency Response..................................................................................... 20
        3 Status of Recommendations .................................................................... 21

    Figures
         1 GovWorks Awards Paid, Fiscal Years 1998 Through 2000...................... 4
         2 Average Annual Award Payout Per Employee, Fiscal
                 Years 1999 Through 2001 ............................................................... 6
         3 Highest Total Award Payments to an Employee, Fiscal Year 2001..........7
         4 Comparison of Benchmarking Partner and GovWorks Award
                 Programs ......................................................................................... 8
         5 Procurement Actions, Dollars, and Gainsharing Awards,
                 Calendar Year 2000 ...................................................................... 14

    Abbreviations
    ABACIS ................ Advanced Budget/Accounting Control and Information System
    DOI....................................................................................Department of the Interior
    FEDSIM .................................................. Federal Systems Integration Management
    FSS .........................................................................................Federal Supply Service
    GSA........................................................................ General Services Administration
    IFF......................................................................................... Interior Franchise Fund
    MMS ..........................................................................Minerals Management Service
    NOAC .....................................................................................Notice of Action Code
    OPM .......................................................................Office of Personnel Management
    PBS ......................................................................................Public Building Service
    PMB ...................................................................... Policy, Management and Budget
    PSSD .....................................................Procurement and Support Services Division
    TVA ............................................................................... Tennessee Valley Authority
    U.S.C............................................................................................ United States Code



                                                                   iii
Background
             The Procurement Operations Branch, which is within the
             Procurement and Support Services Division (PSSD) of MMS,
             provides procurement services to MMS and to other Federal
             agencies. In fiscal year 1997, the Branch took the trade name
             “GovWorks”2 in conducting its procurement services for non-
             MMS customers. The name GovWorks will be used throughout
             this report when referring to the Branch. Since fiscal year 1997,
             GovWorks has provided procurement services to MMS, GSA, and
             IFF.

             The IFF was established under Section 113 of the 1997 Interior
             and Related Agencies Appropriation Act.3 The franchise fund
             pilot program was authorized under Section 403 of the
             Government Management Reform Act of 1994.4 The franchise
             funds would provide products and services to the participating
             agency, as well as to other Federal agencies, on a competitive fee-
             for-service basis. The agreed upon fee was required to recover the
             full cost of the funds’ franchising operations. In addition, the
             franchise funds were allowed to structure their fees to accumulate
             a reasonable operating reserve and a capital improvement reserve
             of up to 4 percent of the total annual income.

             On May 17, 1996, the Office of Management and Budget
             designated DOI as one of six Federal agencies5 authorized to
             establish franchise fund pilot programs. To preserve existing
             resources in the event the pilot program expired,6 DOI
             management decided to operate IFF as a “virtual organization,”7
             using resources from existing organizational structures rather than
             staffing a new organization. Accordingly, there are no human

             ________________________
             2
               GovWorks® is a registered trademark of DOI. ©2001 The U.S. Department of
             the Interior Franchise Fund/Minerals Management Service.
             3
               Act of Sept. 30, 1996, Public Law 104-208, Div. A. Title I, Sec. 101(d)[Title I,
             Sec. 113] (codified at 31 U.S.C. 501, notes)
             4
               Public Law 103-356, Sec. 403, 108 Stat. 3413 (codified at 31 U.S.C. 501,
             notes)
             5
               The six Federal agencies authorized to establish franchise funds were DOI,
             Department of Commerce, Environmental Protection Agency, Department of
             Treasury, Department of Veterans Affairs, and Department of Health and
             Human Services.
             6
               The Franchise Fund Pilot Programs provision of Public Law 103-356 expired
             on October 1, 1999; however, the Pilot Programs have been extended through
             October 1, 2002.
             7
               DOI used the term “virtual organization” because although IFF is a separate
             legal entity with its own appropriation within DOI, IFF has no personnel or
             equipment attached to it as currently configured.


                                                  1
               resource or tangible assets assigned to IFF. IFF obtains goods and
               services for its customers by “subcontracting” with DOI service
               providers under reimbursable interagency agreements authorized
               by Section 1535 (a) of the Economy Act.8 IFF subcontracts with
               two providers: GovWorks and DOI’s National Business Center,
               which are required to charge IFF for costs associated with IFF
               activity.

               GovWorks provides “cradle-to-grave” procurement services by
GovWorks       determining customer requirements and type of contract, preparing
Services and   and advertising Requests for Proposals, receiving and evaluating
Organization   vendor bids, negotiating with and selecting contractors, and
               managing the contract from start to finish. GovWorks charges
               about 3 percent of direct contractor costs for the services provided.
               From fiscal years 1997 to 2001, GovWorks increased its
               workforce almost three-fold, from 11 full-time employees to 30.
               During that time, GovWorks increased its total dollar amount of
               procurement awards over 500 percent ($62 million to $361
               million) and the number of actions awarded by almost 800 percent
               (550 actions to 4,387 actions).

               As of July 2001, GovWorks employed 30 people: a Chief,
               15 contract specialists, and 14 procurement support personnel. In
               addition to the 30 GovWorks employees, six other employees
               worked with and supported GovWorks: a five-employee Policy
               Group assigned to PSSD and one employee from the Office of the
               Associate Director of Administration and Budget.

Gainsharing    GovWorks developed and implemented a group incentive
Program        program, called “gainsharing9,” in fiscal year 1997. According to
               the GovWorks Chief, who manages the program, quarterly award
               payments were paid to all procurement personnel assigned to
               PSSD with a satisfactory performance rating if the total dollar
               amount of procurement actions projected during a performance
               year exceeded $34 million (the total dollar amount of procurement
               actions issued in fiscal year 1996, the benchmark year). The Chief
               also determined and paid awards to non-PSSD employees (for
               example, employees in the Information Resources Management,
               Budget and Finance, and Personnel Divisions), who were not

               ________________________
               8
                31 U.S.C. §1535
               9
                OPM defines gainsharing as programs that reward groups of employees whose
               performance increases productivity or reduces costs. The agency shares its
               savings with those who produced them by calculating lump-sum “gain shares”
               using a preset formula. More information on gainsharing can be found on
               pages 9 and 10 of the report.


                                                2
 officially participants in the gainsharing program because they
 were not GovWorks employees. The Chief felt they contributed
 to PSSD accomplishments. All award payments, including
 payments to non-PSSD employees, were charged to IFF.

 The award pool, which was estimated based on 10 percent of total
 earned franchising fees each quarter, remained available until
 distributed. The award pool has two components, an equity
 portion10 and a performance portion. Up to 50 percent of the
 award pool was available for distribution to all gainsharing
 participants as an equity share. The remainder of the pool was
 distributed to employees who significantly contributed to the
 success of the franchise program and the procurement program.

 With the exception of the Chief of GovWorks and the Chief of
 PSSD, who established limits of $10,000 for themselves, each
 employee could receive up to $20,000 in a year.11 Except for
 himself, the GovWorks Chief determined and recommended how
 much to distribute to every award recipient, including his
 supervisor, the PSSD Chief. The PSSD Chief recommended an
 award amount for the GovWorks Chief and either approved or
 adjusted the award amounts recommended by the GovWorks
 Chief. The MMS Associate Director for Administration and
 Budget approved the award amounts for both the GovWorks and
 PSSD Chiefs.

 As shown in Figure 1, the total dollar amount of awards increased
 from $40,500 in fiscal year 1998 to $258,400 in fiscal year 2000.
 During this time, the number of employees who received awards
 increased from 23 (12 GovWorks and 11 non-GovWorks) to
 55 (24 GovWorks and 31 non-GovWorks). Total payments to
 individuals in fiscal year 2000 ranged from $750 to $20,000 for
 GovWorks employees and from $500 to $9,000 for non-
 GovWorks employees. Figure 1 also shows the percentages of
 total dollars paid to GovWorks (blue) and non-GovWorks (red)
 employees. In fiscal year 2001, which began October 1, 2000,
 GovWorks made award payments in October and November
 totaling $104,000.




 ________________________
10
   The equity share is the portion given out to all program participants, although
the actual amount distributed was not the same for each employee.
11
   Employees also received performance awards in addition to GovWorks award
payments.


                                      3
                                                                            $258,400

                           $300,000                                                  23%


        AW ARDS PAYMENTS
                           $250,000

                           $200,000                        $121,750

                           $150,000        $40,500                   17%             77%

                           $100,000                26%               83%

                            $50,000                74%

                                $0
                                         1998              1999             2000

                                         GovW orks              Non-GovW orks

                                                                       GovWorks Awards Paid
                                                               Fiscal Years 1998 Through 2000
                                                                                     Figure 1
                            Payments were stopped after November when MMS began an
                            internal evaluation of the award program. In June 2001 the Acting
                            Assistant Secretary for PMB asked MMS to suspend gainsharing
                            payments until our audit was completed and DOI had an
                            opportunity to examine our findings.


Objective                   We audited the GovWorks gainsharing program and IFF
and Scope                   procurement activities for fiscal years 1997 through 2001 to
                            determine whether (1) the gainsharing program was properly
                            authorized and operated in an appropriate and equitable manner
                            and (2) the full costs of IFF procurement activities were identified
                            and recovered. As part of our audit, we also obtained information
                            about the award programs of seven other Federal agencies and one
                            private company, which we identified as benchmarking partners
                            (see Appendix 1). We compared specific program features and
                            the amounts of awards paid for fiscal years 1999 through 2001 for
                            these benchmarking partners with GovWorks’ program features to
                            determine the appropriateness of GovWorks awards and the merits
                            of the program’s operation.

                            Except for the benchmarking comparison, we conducted our audit
                            in accordance with the “Government Auditing Standards,” issued


                                                           4
               by the Comptroller General of the United States. Accordingly, we
               included such tests of records and other auditing procedures that
               were considered necessary under the circumstances.

Results of     MMS should terminate its GovWorks gainsharing program and
Audit          recover the full costs for procurement services provided to IFF.
               The gainsharing program, which was developed and implemented
               in 1997 to reward employees for continuous high performance,
               instead became a de facto entitlement program that paid
               unreasonably high awards without proof of commensurate gains in
               productivity. In addition, GovWorks did not recover the full costs
               of providing procurement services to IFF, as required by law, and
               as a result used MMS appropriations to subsidize IFF procurement
               activities.

GovWorks’      The GovWorks gainsharing program resulted in awards being paid
               even during times when GovWorks IFF activity resulted in a loss.
Gainsharing    The GovWorks gainsharing program was not authorized by DOI
Program        or MMS, and GovWorks did not adhere to OPM, DOI, or MMS
Should be      guidelines in developing and implementing the award program.
               GovWorks’ program lacked both quantifiable criteria for
Terminated     measuring productivity gains and an established payout formula
               for determining award amounts. GovWorks’ award payment per
               employee for fiscal year 2000 averaged $7,685, over 65 percent
               greater than the highest average award payment of $4,667 made
               by a benchmarking partner.

  Comparison   Based on a comparison of award payments made by our
  of Awards    benchmarking partners and GovWorks, the GovWorks payments
  Paid by      appear unreasonably high. In fiscal year 2000, two of the Federal
  Partners     agencies in our benchmarking analysis established annual award
               limits of $1,000 and $3,200, and two other Federal agencies
  and by       limited awards to 6.25 and 7.5 percent of employee salaries. To
  GovWorks     illustrate the difference between awards paid by the agency with a
               limit of 7.5 percent of base salary and awards paid by GovWorks,
               an employee with an annual award limit of 7.5 percent of base pay
               would need a salary of about $267,000 to receive the GovWorks
               annual limit of $20,000. The other three Federal agencies and the
               private benchmarking partner did not have annual limits, but their
               award pools were limited because they were based either on
               gainsharing12 or on salary.

               ________________________
               12
                 Gainsharing programs are based on cost reduction and are thereby limited by
               how much costs can be reduced, while still maintaining increased productivity
               (output level).


                                                   5
                Figure 2 compares the average annual award per employee13 paid
                by the benchmarking partners for fiscal years 1999 through 2001
                to the awards paid by GovWorks.14 In fiscal years 1999 and 2000,
                the average payout per employee for the benchmarking partners
                ranged from $600 to $4,667, while GovWorks paid an average of
                $5,534 in fiscal year 1999 and $7,685 in fiscal year 2000. In fiscal
                year 2001, GovWorks paid out awards in October and November
                2000 totaling $104,000 before the program was suspended. If
                GovWorks had continued to pay awards at the same rate as fiscal
                year 2000 (12 percent of total IFF franchising fees collected), the
                payout would have been $553,176, or about $15,366 per award
                program participant.


                                                                                                                               $15,366
                $16,000



                $14,000
                                                                                                                           *
                $12,000



                $10,000
 DOLLAR AWARD




                                                                                                                     $7,685
                 $8,000

                                                                                                                  $5,534
                 $6,000                                                                                  $4,667


                 $4,000                                                              $2,900
                                                                 $2,638                       $2,200
                                                   $1,761                 $1,790
                          $1,000 $900 $1,000
                 $2,000                     $845            $893
                                                                              $600

                     $0

                              Army          GSA-PBS             GSA-FSS        Engraving           GSA-FEDSIM        GovWorks
                                                                      AGENCIES

*Assuming same payout                                  FY 1999            FY 2000             FY 2001

rate as FY 2000




                                         Average Annual Award Payout Per Employee
                                                    Fiscal Years 1999 Through 2001
                                                                                                       Figure 2

                ________________________
                13
                   Calculated by dividing the total paid out during the year by the number of
                program participants
                14
                   TVA, the U.S. Mint, and the private company were not included in Figure 2
                because they did not pay awards all 3 years from fiscal years 1999 to 2001.


                                                            6
                          Figure 3 shows that the highest total awards paid to an individual
                          in fiscal year 2001 by benchmarking partners ranged from $1,000
                          to $11,000.15 Two GovWorks employees received $20,000 in
                          fiscal year 2000.


                                                                                                               $20,000

               $20,000


               $18,000                                                                                       *
               $16,000


               $14,000
                                                                                                   $11,000
DOLLAR AWARD




               $12,000


               $10,000
                                                                                         $7,100
                $8,000
                                                                                $5,250
                $6,000                                            $3,567
                                                      $3,000
                $4,000
                                         $2,200
                           $1,000
                $2,000


                   $0

                         Army       Engraving     Private      GSA-FSS       GSA-PBS     TVA       GSA-      GovWorks
                                                                                                  FEDSIM
               * Assuming same payout as FY 2000
                                                        BENCHMARKING PARTNERS

                                                   Highest Total Award Payments to an Employee
                                                                              Fiscal Year 2001
                                                                                                           Figure 3

                          We met with OPM officials, who told us that government-wide
                          the average incentive award pay was 1 percent of base salary. In
                          addition, we obtained a gainsharing analysis and benchmarking
                          study acquired by GSA’s Federal Supply Service, which cited
                          award payments of 2.5 to 3 percent of employee pay for new
                          gainsharing programs and 4 to 5 percent for established programs.
                          GovWorks paid awards ranging from 15 to 47 percent of base



                          ________________________
                          15
                            The U.S. Mint was not included in Figure 3 because it did not pay awards in
                          fiscal year 2001.


                                                                         7
                   salary to employees who worked the entire year in calendar year
                   2000.

GovWorks           We reviewed the GovWorks program to determine whether the
Program            high award amounts could be justified. We also evaluated the
Weaknesses         award features of our benchmarking partners and compared them
                   with GovWorks to help us determine whether the GovWorks
                   program was operated in a reasonable, equitable, and efficient
                   manner. The comparison of award program features (Figure 4)
                   and our analysis revealed critical weaknesses in the GovWorks
                   program.




                            De aym now
                                     its out




                                                                            cip ited
                                       ned s




                                                                         rm ast
                                                                                  ts
                                     ent n
                ES




                                ter ent




                                                                       cum ogy




                                                                                 ce
                                        ed




                                                                                ed
                                cum tio



                                Lim Pay




                                                                               an
                                                                     Pa s Lim
                              wP sK
                          De yme l




                                                                               P
                              Pa idua
                              ter nt




                                                                              an
                                                                             ent
              CI




                                                                       th t
                           Do mina




                                                                    Do odol
                                                                   Me a y o u




                                                                    Pe ders
                                    mi
                         Ho pant
                                    al
             EN




                                                                        rti
                                  iv




                                                                       ent
                                du




                                                                      rfo
                             Ind




                                                                     nsi
                                                                      P
                               ci
                            ivi
          AG




                                                                   ym
                           rti




                                                                  Co
                                                                  to
                        Ind




                                                                 Pa
                        Pa

      U.S. MINT           Y            N            Y            Y          Y           Y
     BUREAU OF
     ENGRAVING
                          Y            Y            Y            Y          Y           Y
     GSA-FEDSIM           Y            N            Y            Y          Y           N
      GSA-PBS             Y            Y            Y            Y          Y           Y
      GSA-FSS             Y            N            Y            Y          Y           Y
        TVA               Y            Y            Y            Y          Y           Y
       ARMY               Y            Y            Y            Y          Y           Y
      PRIVATE             N            N            N            N          Y           N
     GOVWORKS             N            Y            N            N          N           N

                                                  Comparison of Benchmarking Partner
                                                     and GovWorks Award Programs
                                                                                        Figure 4
                   The programs for the seven Federal partners evaluated during our
                   benchmarking analyses were characterized by quantifiable and
                   documented criteria for measuring performance. These programs
                   used either cost reduction (gainsharing) or goal achievement
                   (goalsharing16) as the basis for paying awards. In addition, the

                   ________________________
                   16
                    Goalsharing is another incentive award program closely related to
                   gainsharing, except that goalsharing is more suitable for work that is not readily
                   measurable in financial terms.


                                                        8
                seven Federal agencies had established payout formulas to
                determine and document the award amount. These formulas were
                understood and accepted by the program participants. They knew
                what was required of them and how the award amounts were
                calculated. Six Federal agencies had incorporated past
                performance into their performance evaluation process, and all
                eight partners limited award payments to program participants.

                The GovWorks program did not meet OPM, DOI, or MMS
                guidelines and did not use cost reduction or goal achievement as
                the basis for its awards. Instead, GovWorks used increases in the
                dollar amount of procurement activity regardless of cost, which, in
                turn, resulted in awards being paid even when the operation
                resulted in a loss. In addition, the program used an unreasonably
                low benchmark or performance target from 1996 for initiating
                awards and an erroneous awards pool for determining awards.
                The evaluation of employee performance and the payout
                methodology were subjective and undocumented and did not
                consider past performance. The administration of the award
                program also created inequities in how and where the program
                was implemented. These critical weaknesses are discussed in
                detail in the following paragraphs.

GovWorks did    As developed and implemented, the program was neither
not Meet OPM,   gainsharing as defined by OPM guidance nor a productivity
DOI, or MMS     improvement program as defined by the DOI Awards Handbook.
Guidelines      Rather, the GovWorks program was developed based on a
                misapplied definition of gainsharing, which assumed that
                increased total procurement dollars awarded equaled increased
                productivity without regard to costs or the net results of
                operations.

                OPM Gainsharing. OPM defines gainsharing17 as programs that
                reward groups of employees whose performance increases
                productivity18 or reduces costs. The agency shares its productivity
                gains with those who produced them by calculating lump-sum
                payments or “gain shares” using a preset formula, with a fixed
                performance period and an established measurement baseline.
                Basic features of gainsharing programs include:


                ________________________
                17
                  OPM publication “Gainsharing: An Overview,” published 1996.
                18
                  Federal Personnel Manual Letter 451-6, Subchapter 9 – “Productivity
                Gainsharing Programs,” defines productivity as using resources (inputs such as
                labor, capital, materials, or energy) to produce a measurable output. Improving
                productivity can mean improving resource use and/or improving outputs.


                                                    9
       Productivity measurable in financial terms. The agency
       must be able to quantify the time and resources used in
       completing a product or unit of service and convert them
       into dollars spent or saved.

       Baseline measurements. In the purest meaning of
       gainsharing, the average cost of a unit of production during
       the previous performance period is the baseline for the
       next performance period. The emphasis is on gain, or
       continuous improvement.

       Payout formulas. Gainsharing awards are typically based
       on splitting gains between the agency and the employees.
       The employee share may be divided equally among all
       involved employees or based on each employee’s
       contribution during the performance period. When the
       formula permits contribution-based variations, criteria
       must be clearly communicated and accepted as fair by all
       employees.

GovWorks did not incorporate these basic features into its award
program. GovWorks did not quantify the time and resources used
in completing a product or unit of service and convert them into
dollars spent or saved. It did not consider past performance in
evaluating individual employee performance and therefore did not
consider continuous improvement. GovWorks also did not have a
payout formula or written procedures to determine the award
amount each employee would receive each quarter.

DOI Productivity Improvement Award. A productivity
improvement award as defined by DOI19 provides for cash awards
for increasing productivity through improving processes,
suggesting cost savings, streamlining, or eliminating non-value
added processes. The Handbook states that the “employee(s)
shares some portion of actual savings resulting from cost
reduction or productivity gains.” The GovWorks’ award program
is not based on generating cost savings or increasing productivity,
but simply on increasing revenue and then distributing a portion of
the increased revenue to the employees.

MMS Approval Requirements. At the time of our review, the
GovWorks award program policy had not been approved or issued
in the MMS Manual. In addition, GovWorks did not comply with

________________________
19
 “Department of the Interior Human Resources Management Handbook,
Awards and Recognition Program,” issued February 1996.


                                10
              Section VF1e of the MMS Manual “Handbook, Administrative
              Delegations of Authority” (Release No. 237, dated February 23,
              1996), which requires the Assistant Secretary for Land and
              Minerals Management to approve group awards with an aggregate
              amount over $10,00020 or individual awards over $5,000. The
              first group award payment, totaling $40,500, was distributed to
              participants on September 28, 1998. The last group award
              payment, totaling $48,000, was made on November 5, 2000.

              GovWorks did not obtain approval for its group awards because
              the MMS Personnel Office did not consider gainsharing to be a
              group award program. As implemented, however, the program
              was based on a group incentive program, and participants received
              awards based on group achievement. Also, in identifying the
              award payments in its personnel records, MMS used a code21 that
              designated the payments as group cash payments.22

GovWorks      GovWorks’ performance target for the award program was
Lacked        unreasonably low. Specifically, the triggering event for award
Reasonable    payments occurred when the projected total annual dollar amount
Performance   of all procurement actions (MMS, IFF, and GSA) exceeded
Target        $34 million, which was the total dollar amount of procurement
              actions issued in fiscal year 1996. GovWorks began franchising
              out its procurement services in fiscal year 1997. By establishing a
              fixed benchmark using a measure that existed before its
              franchising activity, GovWorks essentially guaranteed award
              payments each year and failed to follow the OPM requirement to
              demonstrate continuous improvement. Without this emphasis on
              continuous improvement, the awards became entitlements.

GovWorks      The award pool was calculated using the wrong base. Since all
Calculated    award payments were charged to IFF, only IFF procurement
Award Pool    activity should have been considered in determining the amount of
Incorrectly   awards. GovWorks, however, considered its award pool to be

              ________________________
              20
                 The MMS Manual cites that the approval level for all group awards is driven
              by the aggregate amount of the award.
              21
                 Nature of Action Codes (NOAC) are unique numerical codes that identify
              particular personnel actions (appointments, promotions, or awards) that
              agencies report to the Central Personnel Data File for statistical and data
              processing purposes.
              22
                 Effective October 1, 2000, OPM changed the NOAC designations for awards
              by eliminating some categories, such as gainsharing, performance, and special
              act, and combining all cash awards into either individual (#840) or group
              (#841) cash awards. Prior to October 1, 2000, MMS designated payments
              under the Program as gainsharing payments under NOAC #874. Since
              October 1, 2000, GovWorks award payments have been coded #841 for group
              cash awards.


                                                 11
              10 percent of its fees from all of its franchising activities, thereby
              overstating the pool and the award payments charged to IFF. For
              example, by including fees for all franchising activity in the award
              pool, GovWorks actually paid out gainsharing payments
              representing 16 percent, 17 percent, and 12 percent of total fees
              collected from IFF activity in fiscal years 1998, 1999, and 2000,
              respectively. Furthermore, as part of determining individual
              award amounts, GovWorks considered all procurement activities,
              including those conducted for GSA and MMS.

GovWorks      Since IFF funded the full cost of the GovWorks award payments,
Overcharged   we determined that the IFF was overcharged. We estimated that
IFF           IFF was charged about $260,000 in program award payments for
              non-IFF activity, which represented about 54 percent of total
              program awards of $484,150 paid in fiscal years 1999 through
              2001.

              According to the GovWorks Chief, he charged all award payments
              to IFF because when GovWorks started providing service to IFF
              customers in fiscal year 1997, the procurement personnel
              servicing MMS and GSA were required to perform additional
              work, including working uncompensated overtime. When the
              award program was implemented, procurement personnel
              servicing MMS and GSA were given award payments, even
              though the GovWorks gainsharing program was fully funded by
              IFF.

              This action was not appropriate or valid for a number of reasons.
              First, as Federal employees, if they were entitled to overtime pay,
              the remedy available to them would be to seek compensation
              through an administrative or adjudicative process,23 not for
              management to later “make up” pay through an awards program.
              Second, in later years, staffing was increased to meet IFF needs,
              therefore the workload was evenly distributed among all staff,
              eliminating the need for substantial overtime. Third, we evaluated
              the time sheets of GovWorks staff from fiscal year 1999 through
              May 2001 and concluded that, except for the team leaders, the
              remainder of the GovWorks staff did not work significant
              uncompensated overtime. In general, employees who did work
              overtime received either overtime pay or compensatory time.



              ________________________
              23
                The administrative process would be to file an employee grievance or to
              request a Comptroller General’s decision and the adjudicative process would be
              to file a lawsuit.


                                                 12
GovWorks      As implemented, the GovWorks program lacked written policies
Lacked        and procedures establishing criteria to evaluate and measure
Performance   individual achievement and to determine the amount of individual
Evaluation    cash awards. Individual employee performance was evaluated
Criteria      subjectively rather than by measurable criteria. Only the
              GovWorks Chief knew of the undocumented factors and criteria
              used to evaluate each employee’s performance and to determine
              the award amount recommended for that employee. Therefore,
              the evaluation factors were not quantified or documented and
              could not be objectively correlated to the awards received. For
              example, some of the factors purportedly considered by the Chief
              were his personal knowledge of each employee’s
              accomplishments, including the complexity of the procurement
              actions, the new business generated, the types of assignments, and
              the marketing and promotion of GovWorks.

              There were also no quantifiable or documented performance
              indicators for non-contract specialists in GovWorks (which
              represented about half of the staff), Policy Group employees, or
              non-PSSD employees who received awards. The Chief stated that
              when evaluating support personnel, he considered the procurement
              activity of the contract specialists with whom the support
              personnel worked. In evaluating Policy Group or non-PSSD
              employees, the Chief determined how much he wanted to give
              each employee based on his judgment of the value of the work
              performed for GovWorks.

              The Chief did not consider past performance in evaluating
              individual employees. In evaluating contract specialists, the Chief
              looked only at the current period’s procurement activities. OPM
              gainsharing guidance cites that “in the purest meaning of
              gainsharing, the average cost of a unit of production during the
              previous performance period is the baseline for the next
              performance period. The emphasis is on gain, or continuous
              improvement.” Even using the misapplied productivity
              improvement criteria of increasing procurement award dollars, the
              Chief did not compare the current period’s performance to that of
              previous periods to determine whether employees increased their
              award numbers from one period to the next.

              The only quantifiable performance indicator used by the
              GovWorks Chief was the number and total dollars of procurement
              actions completed by each contract specialist for all activities
              (MMS, IFF, and GSA). Figure 5 shows this indicator and the
              amount of gainsharing awards for calendar year 2000. As shown


                                            13
                        in the figure, there is no direct correlation between the number and
                        total dollars of procurement actions and the amounts awarded to
                        each employee



   450                                                                                      $20,000


   400                                                                        $17,500
                           Gainsharing
                          Annual Award
   350                        Total                                 $15,000


   300                                                        $12,300


   250                                              $11,500

                                          $11,000
   200

                                $10,500
   150
                   $9,500
   100 $6,000


    50


     0
         A          F       X       C       E        D         J        I      G        L       M


                                          Contract Specialists

                Number of Procurement Actions        Dollar Amount of Procurement Actions (Millions)



                                            Procurement Actions, Dollars, and Gainsharing
                                                             Awards, Calendar Year 2000
                                                                                             Figure 5


GovWorks Lacked         GovWorks did not have a payout formula or written procedures to
Procedures to           determine the award amount each employee would receive each
Determine and           quarter. Program policy guidance stated that half the award pool
Inform Employees        would be distributed to all the participants and half the pool would
About Individual        be distributed based on individual contributions to the success of
Cash Awards             IFF and GovWorks. There were no written procedures, however,
                        establishing how this process would be accomplished. In our
                        review of past payments, the Chief did not identify or document
                        which part of an employee’s award was for the equity share and
                        which part was based on performance.



                                                          14
                The documentation justifying individual awards was also
                inadequate. The GovWorks Chief determined each employee’s
                award amount, but did not document what individual performance
                factors he considered or how he used the performance factors to
                determine the award amounts. In addition, GovWorks employees
                told us that they did not know how their award amounts were
                determined or what they had to accomplish to receive award
                amounts. The GovWorks Chief generally did not meet with
                employees before or after they received their awards to discuss
                how their performance was evaluated or how the award amounts
                were determined. In most cases, employees found out about their
                awards after receiving the money or the Notification of Personnel
                Action (SF50). The justifications attached to the SF50s provided
                a generic description of why the employee received the award, for
                example, recognizing the contributions the employee made while
                working in GovWorks and adding to the success of the IFF.
                Specific individual employee contributions, however, were not
                documented.

GovWorks        As developed and implemented, the award program did not
Lacked Parity   provide other MMS employees performing similar work with the
                opportunity available to GovWorks employees. We found MMS
                non-GovWorks procurement employees who performed MMS
                procurement work at other locations but did not receive award
                payments because they were not participants in GovWorks’ award
                program. For example, in calendar year 2000, two GovWorks
                employees who worked on MMS procurement activities for
                96 percent and 100 percent of their time received GovWorks
                awards of $15,000 and $11,000, respectively. In addition, these
                two employees received performance awards of $5,000 and
                $2,000, respectively. The employees in the other locations who
                worked on MMS procurement activities for 100 percent of their
                time received performance awards ranging from $500 to $3,075.
                They did not have the opportunity, however, to receive additional
                award payments that were available to the GovWorks employees.

GovWorks did    The IFF Handbook, which establishes policies and procedures for
not Consider    IFF operation, allows for the use of any surplus revenues for
IFF Handbook    establishing an operating reserve to pay for “the ordinary and
Policies        necessary operating costs (direct and indirect), which must be
                incurred to meet the service provider’s obligations to its customers
                prior to receiving reimbursement.” However, when we applied
                the “ordinary and necessary” qualifier to the reimbursement of
                costs incurred by service providers performing work for IFF—
                specifically the payment of awards—we concluded that such




                                              15
                    payments were not “ordinary or necessary” for GovWorks to meet
                    its customer obligations.

                    Group award programs such as gainsharing and goalsharing are
                    uncommon in the Federal government. The GovWorks’ award
                    program is unique, not only within DOI, but also within the realm
                    of gainsharing and goalsharing programs currently existing within
                    the Federal government. We found no other Federal agency
                    program that based its awards on increased revenue, where such
                    revenue was driven by the purchasing activity of outside agencies.
                    We acknowledge that participation in the gainsharing program
                    improved morale among GovWorks employees. Considering the
                    fact that all GovWorks employees received performance awards in
                    addition to the gainsharing awards, however, it is questionable
                    whether the payment of awards under the program was, in fact,
                    necessary to meet customer needs.

                    Since the gainsharing award payments are charged to IFF
                    operations, IFF should decide whether GovWorks should be
                    reimbursed for such payments. If GovWorks had not paid
                    gainsharing, MMS would not have incurred losses in its IFF
                    operations in fiscal years 1998, 2000, and 2001. IFF’s Executive
                    Board24 and DOI management should decide if GovWorks will
                    have an award program in addition to the incentive awards
                    program already available to all MMS employees. They should
                    also decide whether IFF funds should be used for awards or for
                    operational reserves and capital improvements allowed under
                    franchise fund legislation. In implementing an awards program,
                    the Board and DOI management should also consider equity
                    among employees throughout DOI and prevent the lack of parity
                    we found within MMS.

                    MMS used its appropriations to subsidize procurement activities
Full Costs of IFF   for IFF because it did not establish procedures to ensure that all
Procurement         IFF-related costs were identified and recovered. Section 113 of
Activities Should   the 1997 Interior and Related Agencies Appropriation Act requires
                    IFF to recover all costs of operation, including accrued annual
be Recovered        leave. Because of the nature of IFF’s organization, all costs
                    associated with IFF are first incurred by the service providers and
                    then recovered from IFF. Service providers are therefore
                    responsible for establishing procedures to ensure full recovery of
                    all IFF-related costs.

                    ________________________
                    24
                      The Executive Board is responsible for recommending operating policies and
                    procedures to the Assistant Secretary for PMB and ensuring compliance with
                    required statutes, regulations, and policies.


                                                      16
Based on our analysis of GovWorks’ revenues and expenses and
of IFF’s audited financial statements, we estimated that MMS did
not recover costs totaling about $377,252, as follows:

       Net losses from GovWorks reported in the IFF’s financial
       statements from fiscal years 1997 ($33,747), 1998
       ($3,227), 2000 ($190,373), and 2001 ($48,710) totaling
       $276,057.

       Unrecovered gainsharing payments from fiscal year 1998
       totaling $9,195.

       Accrued unused annual leave as of September 30, 2001,
       estimated to be about $92,000.

We determined that GovWorks tracked the revenue and expenses
of its franchising activity on a monthly basis to recover its IFF-
related costs. Instead of tracking actual invoiced costs and billed
revenue, however, GovWorks, for multi-year contracts, based its
calculation on recognizing 60 percent of the contract cost and
revenue in the first year of the contract and the other 40 percent in
subsequent years. Therefore, GovWorks financial information did
not reconcile to MMS’s accounting system, the Advanced
Budget/Accounting Control and Information System (ABACIS),
or IFF’s audited financial statements. For the fiscal year ending
September 30, 2001, for example, GovWorks was tracking
revenue of $170.2 million, which should match IFF revenue
reported in ABACIS and IFF’s GovWorks expenses reported in
IFF’s financial statements. ABACIS, however, reported
$195.5 million in revenue, and IFF reported $198.0 million in
GovWorks related expenses. Since GovWorks did not track the
actual revenue and expenses of its IFF activity, it was not able to
ensure that it recovered the full cost of that activity.

In fiscal year 1998, gainsharing payments totaling $40,500 was
paid to GovWorks and non-GovWorks employees; however, all
the payments were charged to the GSA activity. We estimated
that $9,195 was applicable to IFF activity and should have been
charged and recovered from the IFF.

In the case of accrued unused annual leave, GovWorks employees
did not know they were required to recover this expense for IFF
activity. Since it has never been recovered, the unrecovered
expense is the accrued unused annual leave as of September 30,
2001. In the future, only the amount over $92,000 will need to be
recorded and recovered.


                               17
Recommendations
                    Our recommendations concerning MMS policies and procedures are
                    addressed to the Assistant Secretary for Land and Minerals
                    Management. The recommendation regarding IFF policies and
                    procedures is addressed to the Assistant Secretary for PMB because
                    as DOI’s Chief Financial Officer, the Assistant Secretary for PMB
                    oversees DOI’s Franchise Fund Pilot Program. We therefore
                    recommend that:

                       1. The Assistant Secretary for Land and Minerals Management
                          direct MMS to terminate the GovWorks gainsharing program.

                       2. The Assistant Secretary for Land and Minerals Management
                          direct MMS to establish procedures to identify and fully
                          recover the full cost of IFF activities, reconcile financial
                          information used in the cost-recovery process with MMS’s
                          accounting system, and include MMS Financial Management
                          Branch employees in the cost-recovery process.

                       3. The Assistant Secretary for PMB determine if IFF should
                          allow any extra incentive program over and above the DOI
                          award program.



Agency Response     In the September 4, 2002 response to the draft report
and Office of       (Appendix 2), the Assistant Secretary for Land and Minerals
Inspector General   Management concurred with recommendations 1 and 2. The
                    Assistant Secretary recognized that MMS had stopped the
Reply               gainsharing program in December 2000 and required MMS to
                    obtain approval from the Assistant Secretary’s Office if MMS
                    wished to reinitiate the gainsharing program. The Assistant
                    Secretary also directed MMS to fully implement
                    recommendation 2.

                    The Assistant Secretary for PMB, during discussions with our
                    office, advised that there should not be any extra incentive
                    programs over and above the DOI award program.

                    Based on the response and discussions with the Assistant
                    Secretary for PMB, we consider the three recommendations
                    resolved and implemented.




                                                 18
                                                                                                                                                     Appendix 1
                                                                                     Benchmarking Award Programs Features




                                                                                                                                                                        l
                               ram




                                                          d




                                                                                                                                                          Lim v i d u a
                                                                                                                                      mi e n t
                                                                                           ard on




                                                                                                                                               n
                                                                                                  ol
                                                      rte




                                                                       cip m
           ES




                                                 asu e
                                                  rm le




                                                                             ts




                                                                                                                                           tio
                                                                                                                     ol
                                             M e anc




                                                                                              Po
                                                                                         Aw inati
                                                    res




                                                                            a
                                                     b




                                                                                                                                           m
                            og




                                                                          an
                                          Sta




                                                                                                                   Po
                                                                 Pa r o g r
         CI




                                                                                                                                        na
                                            Pe tifia




                                                                                                                                                              it
                                                                                                                                De . P a y




                                                                                                                                                               i
                           Pr




                                                                                                                                                           Ind
                                                                                                                '00
         EN




                                      ram




                                                                                           m
                                               an




                                                                   fP
                         of




                                                                   rti
                                              rfo




                                                                                       ter




                                                                                                                                  ter




                                                                                                                                                       '00
                                                                                                                                   iv
                                                                                                             FY
      AG




                                            Qu
                       pe




                                     og




                                                                #o




                                                                                                                               Ind
                                                                                      De
                                                                                           of




                                                                                                                                                     FY
                      Ty




                                     Pr
                                                                              45% of Cost
 U.S. MINT       Gainsharing     FY '01 Cost Savings          2,800                                       N/A               Formula                  N/A
                                                                                Savings
                                          Cost Savings/
BUREAU OF                                                                     Cost Savings
                 Gainsharing     FY '99       Goal            2,600                                    $7,540,000           Formula                $3,200
ENGRAVING                                                                     & Formula
                                          Achievement
                                           Goal
                                        Achievement                         7.5% of Direct                                80% formula,
GSA-FEDSIM       Goalsharing     FY '99                        150                                      $700,000                             No Set Limit
                                        & Customer                             Salaries                                   20% 1 person
                                        Satisfaction

                                             Goal                                                                                                  7.5% of
 GSA-PBS         Goalsharing     FY '98                       7,100               Budgeted             $12,500,000          Formula
                                          Achievement                                                                                               salary
                                                                              Cost Savings
 GSA-FSS         Gainsharing     FY '92 Cost Savings           545                                     $1,437,000           Formula          No Set Limit
                                                                              & Formula
                                             Goal                                                                                                  6.25% of
   TVA           Goalsharing     FY '01                       13,000              Budgeted                N/A               Formula
                                          Achievement                                                                                               salary

  ARMY           Goalsharing     FY '95     Net Income        2,500               Net Income           $2,250,000           Formula                $1,000

                                                                                  Client Cost
INDUSTRY         Gainsharing     FY '01 Cost Savings           60                                         N/A               1 person                 N/A
                                                                                   Savings
                                            $'s & #'s                         10% of Fees
GOVWORKS        "Gainsharing" FY '97                           30                                       $371,000            1 person               $20,000
                                            Awarded                            Collected




                                                                       19
          Appendix 2
     Agency Response




20
                                                                       Appendix 3
                                              Status of Recommendations




Recommendation      Status                       Action Required


  1, 2, and 3    Resolved and   No further response to the Office of Inspector
                 Implemented    General is required.




                                    21
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
